No.

2/)-/33/

SUPREME COURT OF THE UNITED STATES

Arthur J. Clemens Jr.,
Petitioner
Vs.
Tom Balanoff
Laura Garza
Nancy Cross
Local One, Service Employees International Union
Respondents

On Petition for Writ of Certiorari to
the United States Court of Appeals
for the Eighth Circuit

FILED
MAR 1 6 2021
OFFICE OF THE CLERK
SUPREME COURT. U S.

PETITION FOR WRIT OF CERTIORARI

Arthur J. Clemens Jr., Pro Se
400 N. 4th Street, #1008
St. Louis, MO 63102
314-297-8474
Email: Lawscan2001 @yahoo.com

I. QUESTIONS PRESENTED
1. Should 29 USC 481(c) be declared Unconstitutional by the Supreme Court and
the case remanded to the Eighth Circuit or the Trial Court with instructions to take
steps to transform Local One, SEIU from being an authoritarian dictatorship with
sham elections into a democratic institution with fair elections?
2. Did the Court of Appeals err by failing to appoint a Class Counsel to represent
the financial interests of the rank and file members of Defendant Local One, SEIU,
pursuant to 29 USC 501 and argue on behalf of insuring the 1st Amendment
Freedom of Assembly Rights of the 50,000 rank and file members of Defendant
Local One, SEIU, and 15 million members of Unions nationwide, and the 14th
Amendment Equal Protection rights of candidates for Union office, including the
Petitioner, in keeping with Rule 23, FRCivP and in the spirit of Gideon v.
Wainwright, 372 U.S. 335?
3. Is the Eighth Circuit Court of Appeals responsible for enforcing the ethical
standards required of the Eighth Circuit by the Supreme Court in the case of In Re
Snyder, 472 U.S. 634 in this case?
4. Has the Eighth Circuit failed to require the Trial Court to meet the standards set
by the Supreme Court in the cases of Celotex Corp. v. Catrett, 477 U.S. 317 and
United States v. El Paso Natural Gas Co., 376 U.S. 651 when granting Summary

Judgment to the Respondents in the First and 11th Causes of Action of the
Petitioner’s Amended Complaint?
5. Has the Eighth Circuit allowed the “exhaustion of remedies” defense to be used
to justify acts that are a violation of Federal and Missouri State criminal statutes,
and/or otherwise expanded the “exhaustion of remedies” defense beyond
reasonable limits?

ii

II. TABLE OF CONTENTS
QUESTIONS PRESENTED

l

TABLE OF CONTENTS

111

TABLE OF AUTHORITIES

IV

PETITION FOR A WRIT OF CERTIORARI

1

RULINGS, REGULATIONS AND EXHIBITS

1

JURISDICTION.

1

STATEMENT OF THE CASE

2

STATEMENT IN SUPPORT OF QUESTION 1

3

STATEMENT IN SUPPORT OF QUESTION 2

8

STATEMENT IN SUPPORT OF QUESTION 3

10

STATEMENT IN SUPPORT OF QUESTION 4

11

STATEMENT IN SUPPORT OF QUESTION 5

15

REASONS FOR GRANTING THE WRIT

17

I. Declaring 29 USC 481(c) Unconstitutional will reinvigorate the declining
union movement in the United States by replacing authoritarian dictatorships
with worker democracy
17

iii

II. Appointing a Class Attorney to argue this case before the Supreme Court
is an opportunity to reform inequities in our legal system that has rarely or
never presented themselves for review since the Gideon case
19
III. The Supreme Court has the responsibility to insure that ethical standards
are enforced by the lower courts, and this case will demonstrate that the
Supreme Court takes this responsibility seriously................................... 20
IV. The Supreme Court can be consistent and enforce the standards of
Celotex and El Paso Natural Gas in this case....................................... 20
V. The Supreme Court has an opportunity to set reasonable standards for
the use of the “exhaustion of remedies” defense in keeping with 29 USC
411(b). If the Eighth Circuit ruling is allowed to stand, it will set an
extremely bad precedent for all Labor cases in the future
20
CONCLUSION

21

CERTIFICATE OF COMPLIANCE

22

CERTIFICATE OF MAILING

23

III. TABLE OF AUTHORITIES
First Amendment, Constitution of the United States.........

5, 7, 14, 16

Fourteenth Amendment, Constitution of the United States

4,5

FEDERAL STATUTES
18 USC 1951(b) (2)

13

28 USC 453

8

29 USC 411(a)(2)

14

29 USC 411(a)(3)A

10
iv

29 USC 411(b)

12, 14, 17

29 USC 481(c)

3,4, 5, 14, 15

29 USC 501

7

CASES
Gideon v. Wainwright 372 U.S. 335
In Re Snyder, 472 U.S. 634

7, 16
...8

Celotex Corn, v. Catrett, 477 U.S. 317

11, 12

United States v. El Paso Natural Gas Co., 376 U.S. 651

11, 12

US vs Playboy Entertainment Group, Inc., 529 U.S. 803

5

Thompson v. Western States Medical Center, 535 U.S. 357

5

Reno v. ACLU, 521 U.S. 844

5,6

Legal Services Corp vs. Valezquez, et al., 531 US 533

6

Harper v. Virginia Bd. of Elections., 383 U.S. 663......

6

Oregon v. Mitchell, 400 US 112

6

Albemarle Paper Co. v. Moody, 422 U.S. 405...

7, 13

United Steelworkers v. Sadlowski, 457 U.S. 102

4, 10

US vs. Grinties, 237 F. 3d 876

11

SIMMONS v. AVISCO, LOCAL 713, TEXTILE WORKERS UNION 350
F.2d 1012
14
Amalgamated Clothing Workers of America Rank and File committee et al..
Appellants, v. Amalgamated Clothing Workers of America, Philadelphia,
Jointboard et al, 473 F.2d 1303
14
Swanson vs. UNIVERSITY OF HAWAII PROFESSIONAL ASSEMBLY, et
v

8

al, 212 F.R.D. 574
Hummel vs. Brennan 469 F. Supp 1180

13

RULES OF PROCEDURE
Supreme Court Rule 10(a)

8, 12

Rule 44 FRAP

7

Rule 5.1 FRCivP

6

Rule 11(c)(2) FRCivP

6

Rule 23 FRCivP........

8

Rule 52 FRCivP

11, 12
MISSOURI STATUTES

Missouri Statutes 115.157

15

Missouri Statutes 570.030

14

MISSOURI SUPREME COURT CANON OF ETHICS
RULE 4-1.8

9
OTHER AUTHORITIES

Department of Labor, OLMS LM-2 Reports which can be found at
https://olms.dol-esa.gov/query/getOrgQry.do Enter the file number 023715
for Local One, SEIU yearly reports. (# used as reference guide in brief.)
................................................................................................. 2. 3,9, 15
Constitution and Bylaws of Teamsters Local 600.............

5

Article X, Local One, SEIU Constitution and Bylaws.......

....12, 13

Article XXVI, Local One, SEIU Constitution and Bylaws

12, 13,14

Appendix B, Local One, SEIU Constitution and Bylaws..

15

Department of Labor, OLMS Publication “Conducting Local Union Officer
Elections” Chapter 7, REQUIREMENTS, paragraph 3
3
vi

IV. PETITION FOR A WRIT OF CERTIORARI
Arthur J. Clemens Jr., a member in good standing of Local One, Service
Employees International Union for over 13 years, as pro se Petitioner respectfully
seeks a writ of certiorari to review the judgment of the United States Court of
Appeals for the Eighth Circuit.
V. APPENDICES OF RULINGS, REGULATIONS AND EXHIBITS
APPENDIX A Court of Appeals Decision
APPENDIX B Denial of Motion for Rehearing and Motion for Hearing En Banc
APPENDIX C Rule 44, FRAP Letter to Attorney General
APPENDIX D Trial Court Order Denying Rule 5.1 Motion of Petitioner
APPENDIX E Trial Court Ruling
APPENDIX F Trial Court Order Denying Motions for Reconsideration
APPENDIX G Department of Labor, OLMS Publication “Conducting Local
Union Officer Elections” Chapter 7, REQUIREMENTS, para 3
APPENDIX H List of 11 Membership Meeting Places, and first page of notice of
2017 membership meeting vote.
VI. JURISDICTION
The Eighth Circuit entered judgment on August 24, 2020 and denied rehearing
and motion for hearing en banc on Oct 20, 2020 and issued a Mandate on
November 3, 2020. The Supreme Court extended this petition’s deadline for filing

1

?

h
r

L1. .

?

to 150 days by a March 19, 2020 Blanket Order. The Court has jurisdiction under
28 U.S.C. §1254(1).
VII. STATEMENT OF THE CASE
This suit was filed on September 8, 2017, as Case # 4:17-cv-2381 in The US
District Court of the Eastern District of Missouri. The case was filed by authority

■«,

of USC 28-2201, USC 28-2202, Amendments 1 and 14 of the United States
Constitution, USC 29-41 lthrough 29-501, Rule 23 of the Federal Rules of Civil
Procedure, USC 42-1983, and other pertinent laws, cases and precedents. The
Petitioner filed an Amended Complaint on April 30, 2018. The Trial Court did not
issue a final ruling until September 23, 2019, although all necessary pleadings
were filed by January 11, 2019.'Trial Court ruling was against the Petitioner. (See
Appendix E.) Petitioner alleged in his emergency motion to appoint an interim
Class Attorney in this case filed on November 27, 2017, that the Financial
Malpractice of the named Defendants was (and still is) costing the dues payers an
estimated five thousand dollars a day in spending that has absolutely no benefit to
the rank and file membership. (See OLMS LM-2 Reports, 2015-2019#)
Petitioner filed motions for reconsideration that were denied on Oct 29,
2019. (Appendix F)
The case was appealed on December 2, 2019 to the Eighth Circuit Court of
Appeals and assigned Case #19-3554. The Court of Appeals denied motions for
2

.

j

of the belief that rank and file members of union locals worked together so they
could communicate with each other at work or membership meetings. Members of
Congress did not foresee Union Locals merging to create Regionals while still
classifying themselves as Locals. Local One, SEIU has membership meetings
once every three months in 11 different locations on the same day (Appendix H),
and no meetings at all during the pandemic, starting in June of 2020, even though
there was an election of officers scheduled for August of 2020. It is not possible
for the rank and file membership to have vigorous debate on any issue pertaining
to Local One business pursuant to United Steelworkers v. Sadlowski, 457 U.S.
102 since the members from different cities and States have no way to
communicate with each other. Meetings were attended by only a very small
percentage of the membership. Rank and file members generally work in small
groups at job sites.
In 1959, there were state laws on the books for the purpose of rigging elections,
such as poll taxes and literacy test laws, which have since been negated by
Supreme Court rulings or federal legislation which has been upheld by Supreme
Court rulings.
The Petitioner and all other rank and file members of Local One, SEIU have no
Freedom of Assembly rights whatsoever regarding union business, and the root
cause of the problem is 29 USC 481(c). As a result, Local One, SEIU elections are
4

a complete fraud and a sham, and all Local-wide officers are always elected by
acclamation. The only elections that are actually held are membership meeting
votes to amend the Local One Constitution and Bylaws. Respondent Balanoff has
been in office as President since 1999 and has consolidated his authoritarian
control of the Local by arranging for the merger with Local 50 of St. Louis in
2004, and other Locals into Local One. Members also cannot communicate with
each other to express their concerns about how the Local is being run or organize
inter-city opposition to the incumbent slate of officers.
The Respondents in cooperation with the Department of Labor, OLMS also
clearly acted under the color of the authority of 29 USC 481(c) to violate the 14

th

Amendment right of the Petitioner to Equal Protection of the Law of the Petitioner
in the 2017 Election for President of Local One, SEIU and other elections and
membership meeting votes to Amend the Local One, SEIU Constitution and
Bylaws. Petitioner filed exhibits* in both the Trial Court and the Eighth Circuit
showing that Respondent Balanoff regularly uses the email addresses of members
to send emails described as newsletters stating his position on union business and
current events, and the Local uses the email addresses of members to sell products
unrelated to Union business, while the Petitioner as a candidate for President
Balanoff s office is not allowed access to the same email list that Respondent
Balanoff uses so that the Petitioner can state his position to the members as to how
5

Local officers and employees get large pay raises every year# which are paid for in
part by increasing the dues of the membership, or otherwise state Petitioner’s
platform for office to the members, and these policies are carried out under the
color of the authority of 29 USC 481(c).
Although a Federal Statute was not struck down in the Harper v. Virginia Bd.
of Elections, 383 U.S. 663, the same logic regarding the denial to the Petitioner of
the 14th Amendment Right of Equal Protection used by the Supreme Court in
declaring said poll tax law Unconstitutional applies to this case.
There are 15 million union members nationwide who are affected by this law.
Often union locals copy 29 USC 481(c) into their Constitutions, and sometimes
they even make additions that make it even more difficult for rank and file
members to challenge incumbents. For example, the Constitution and Bylaws of
Teamsters Local 600 in St. Louis states:

Section 14.03. Every candidate shall have the right, once within thirty (30)
days prior to the date ofelection in which he is a candidate, to inspect the
list containing the names and last known addresses ofthe members of this
organization who are subject to a collective bargaining agreement requiring
membership in this Union as a condition ofemployment. The list shall be
maintained at the principal office of the Union. But candidates must give
the Union office reasonable advance notice of their desire to inspect, may
inspect only during reasonable hours designatedfor that purpose, must
refrain from copying all or any part of the list, and must refrain durins
their inspection from making written notations concerning the list

6

There are several Supreme Court rulings which have declared federal statutes to
be Unconstitutional for violating the First Amendment rights of citizens, or clauses
of federal statutes, to include US vs Playboy Entertainment Group, Inc., 529
U.S. 803, Thompson v. Western States Medical Center, 535 U.S. 357, Reno v.
ACLU, 521 U.S. 844, and Legal Services Corp vs. Valezquez, et al., 531 US
533.

There have also been State Statutes that have been declared Unconstitutional by
the Supreme Court that were on the books in 1959 such as poll taxes and literacy
tests which helped members of Congress who voted for the passage of said clause
get elected which have since been declared Unconstitutional in Harper, or were
superseded by Federal Law that was upheld by the Supreme Court in Oregon v.
Mitchell, 400 US 112.
Petitioner filed a timely FRCivP Rule 5.1 Motion in the Trial Court, who
denied the motion (Appendix D) and ordered the Petitioner to amend his complaint
to include pleadings to have the statute declared Unconstitutional. Petitioner
notified the Attorney General of his motion but the Attorney General did not
respond. The Trial Court refused his responsibility under Rule 5.1 to notify the
Attorney General of the motion. Defense Counsel wrote Petitioner a letter
threatening to cause the Petitioner financial harm under the terms of FRCivP Rule
11(c)(2) if Petitioner did not withdraw the Rule 5.1 motion, and probably charged
7

the dues payers a great deal of money for this work, and Petitioner refused to
withdraw said motion. Trial Court then ruled against the Petitioner’s Constitutional
Arguments in his Amended Complaint, and ruled against a motion for
Reconsideration. (Appendixes E and F) Petitioner then raised the issue in the
Eighth Circuit without success. (Appendixes A and B) Clerk of the Appeals Court
wrote a letter to the Attorney General (Appendix C) pursuant to Rule 44, FRAP,
but there was no response by the Attorney General.
B. STATEMENT IN SUPPORT OF QUESTION 2.
Gideon v. Wainwright 372 U.S. 335 established that the Supreme Court does not
always ignore the pleas of pro se litigants, and also that there is a time when the
Supreme Court will address the inequities of the legal system by appointing an
attorney of the calibre of Abe Fortas to represent the best interests of those whose
Constitutional rights have been systematically violated or are otherwise exploited.
This is particularly true when an important Constitutional question is presented to
the Supreme Court for review. Hopefully, the Supreme Court will issue guidelines
in this case that will improve how our federal court system determines when it is
time to appoint a class attorney. Petitioner argues that at the very least, rank and
file membership could have expected dues refunds and restoration of funds to the
Local One Treasury in a manner similar to Albemarle Paper Co. v. Moody, 422
U.S. 405, and in keeping with 29 USC 501. Petitioner also argues that the
8

Petitioner is a dues paying rank and file member of Local One, SEIU, who is
representative of the class of all rank and file members of the Local, and is also
representative of the subclass of everyone he works with who are charged the same
dues as Petitioner, and are denied their First Amendment rights in a manner similar
to the denial of the Petitioner’s rights, thus satisfying the requirements of FRCivP
Rule 23 set forth in Swanson vs. UNIVERSITY OF HAWAII
PROFESSIONAL ASSEMBLY, et al, 212 F.R.D. 574. Petitioner argues that the
ruling of the Eighth Circuit in this case regarding denial of the appointment of
Class Counsel has sanctioned and allowed the trial court to depart so far from the
usual and acceptable course of judicial proceedings as to require the supervision of
the Supreme Court, in keeping with Supreme Court Rule 10(a).
Dues paying members of Local One working with the Petitioner signed a
petition asking the Trial Court to appoint an attorney to represent them in this case
and asking the Trial Court not to allow the Local to pay dues money to an attorney
to argue against their best interests. Said Petition was filed for them with the Trial
Court by the Petitioner, and this petition was ignored by the Trial Court and the
Eighth Circuit in a manner that was contrary to a
Federal Judge’s Oath of Office, 28 USC 453.
Petitioner filed motions to appoint Class Attorney in the Trial Court, and raised
the issue in the Eighth Circuit. Petitioner also raised the issue of the financial
9

malpractice of the named Defendants affecting the membership in the Trial Court
and the Eighth Circuit. The Trial Court denied Class Status for this case and the
Eighth Circuit ignored the issue.
C. STATEMENT IN SUPPORT OF QUESTION 3
In Re Snyder, 472 U.S. 634 clearly states that the Supreme Court has mandated
that the Eighth Circuit is responsible for enforcing the ethical standards of states
within their jurisdiction, to include requiring attorneys practicing before the Eighth
Circuit to produce time logs and billing statements when there is a question of
ethical violations that the records can shed light on. The record shows that
Defense Counsel’s law firm was paid over $200,000 for work from October of
2017 to Dec 31, 2019, as verified by Local One, SEIU’s OLMS LM-2 Reports# for
2017-2019, not including work done in 2020 by said Defense Counsel, (These
records will be available around April 10, 2021#) and that these increased
payments began shortly after the Petitioner filed this suit. All legal fees were paid
to the firm of Schuchat, Cook and Werner from the Local One, SEIU Treasury, and
not by the named Respondents as verified by the Interrogatory Answer of
Respondent Balanoff.* There were pleadings filed by Defense Counsel that were
extremely petty and irrelevant to the substantive issues of the case. Said pleadings
were filed primarily for the purpose of inflating legal fees paid solely by the dues
payers of the Local without their knowledge (except for the Petitioner who is a
10

dues payer), thus violating RULE 4-1.8 of the Missouri Canon of Ethics, which
states in part:
Comment---- Person Paying for a Lawyer’s Services
Because third-party payers frequently have interests that differ
[11]
from those ofthe client, including interests in minimizing the amount spent
on the representation and in learning how the representation is
progressing, lawyers are prohibitedfrom accepting or continuing such
representations unless the lawyer determines that there will be no
interference with the lawyer's independent professionaljudgment and there
is informed consentfrom the client. ......
There are other ethical violations by members of the Legal Profession in this case
or related to this case besides those of Defense Counsel.
Petitioner filed motions to require Defense Counsel to produce time logs and
billing statements plus other pleadings related to ethical violations in the Trial
Court, and raised the issues again in the Eighth Circuit, plus additional issues
related to ethical violations, but these pleadings have been ignored in the Trial
Court and Eighth Circuit rulings.
*Petitioner filed Interrogatory Questions and Answers given by the named Respondents, and numerous
documents too voluminous to file on paper, plus pictures and a video as exhibits on a flash drive with the
Trial Court, which was later loaned to the Eighth Circuit, in addition to numerous exhibits filed on paper
with the Trial Court in keeping with the Supreme Court standard of Celotex.

D. STATEMENT IN SUPPORT OF QUESTION 4.
An important issue raised by the Petitioner in the First and Eleventh Causes of
Action the Plaintiffs Amended Complaint in this case was the claim that
Defendant Local One, SEIU raised the dues of the Plaintiff in 2016 and again in
11

2017 without a valid election pursuant to 29 USC 411(a)(3)A. Defendants took the
position and basically dictated to the Court that there was a valid election pursuant
to Article XXVI of the Local One Constitution and Bylaws which reads:
ARTICLE XXVI AMENDMENTS
Section 1. This Constitution and By Laws shall be amended by submitting
the proposed amendments) to the Local Executive Board. The Executive
Board shall vote on whether to recommend approval of the proposed
amendments) to the membership and the decision of the Executive Board
shall be communicated to the membership. Such proposed amendment or
amendments shall be presented to the membership at the regularly
scheduled membership meetings. The Secretary-Treasurer shall sive
reasonable notice and submit the proposed amendments) to the
membership prior to the next regular or special membership meetinss at
which the amendment(s) shall be considered and voted on. Such notice
shall be by the Local Union Newsletter, regular mail or other lawful
means. A majority vote of the members in good standing present at all the
membership meetings in each city combined shall be required to adopt any
amendments) to the Constitution. The ballots from each meeting shall be
saved and votes from each meeting shall be collected to determine if a
majority of members local-wide voted to adopt the proposed amendments.
No amendment shall be valid or effective until approved by the International
Union. Section 2. The Local Executive Board shall have the authority to call
special membership meetings at its discretion to deal with amendments
proposed under this Article. Section 3. The Local Executive Board, at the
direction of the President, shall be empowered to add seats on the Executive
Board (including Vice-President positions) due to mergers or other
situations involving the local’s growth into new areas orjurisdictions. Any
proposed increase in the number ofseats shallfirst be read at a Local
Executive Board meeting and then voted at the following Local Executive
Board meeting. A vote of two-thirds (2/3) of the Executive Board as a whole
is needed to approve such a change.
Said election allegedly took place in September of 2012 that allowed Local One,
SEIU to raise the dues of the Petitioner and all of his co-workers starting in 2016,
12

again in 2017 and at any time Respondents pleased after that. Petitioner filed pay
records as exhibits at least one month from each year to show when dues were
raised, plus pictures from the worksite break room showing notices of dues being
raised in 2016 and 2017. Respondents failed to produce for the record any copies
of any alleged notices of said September 2012 election that were allegedly sent by
mail to the 47,000 members including the Petitioner. Respondents failed to
produce a copy of a written referendum that was allegedly voted on which is
supposed to be included in the notice according to said Article XXVI.
Respondents failed to produce a list of the members who allegedly voted in said
election, even though said lists are generally kept. No rank and file member
testified or was deposed stating that he or she voted in 2012 to have his or her dues
raised in 2016, again in 2017, and any time thereafter. The Respondents failed to
file any evidence that the 47,000 members were provided with any financial
statement justifying the need for a dues increase. The only testimony given
regarding said alleged election from a person paying dues came from the Petitioner
at deposition, and Petitioner stated that he did not observe the election first-hand,
did not attend the election, did not received a notice stating the exact nature of the
referendum to be voted on, had no Freedom of Assembly rights to argue against
raising dues or regarding any other issues, but did hear a rumor that there would be
an election. This hearsay evidence was considered proof by the Trial Court that a
13

valid election took place. Petitioner also testified that he observed first-hand how
the vote count was rigged in a 2017 membership meeting vote, and filed a video
exhibit showing how Petitioner was barred from videotaping the vote count.* The
named Defendants refused to answer Interrogatory questions* about how a
member voicing his or her opposition to a proposal being voted on at a
membership meeting on can be heard in 11 different meeting locations at the same
time (See Appendix H), in keeping with the standards set by the Supreme Court in
United Steelworkers v. Sadlowski, 457 U.S. 102. Trial Court granted summary
judgment to the Defendants, and the ruling was upheld by the Eighth Circuit.
In Celotex, the Supreme Court ruled that facts sufficient to support the moving
party’s claim must be entered into the record in order to sustain a valid Summary
Judgment in favor of the moving party, and this was not done. In El Paso Natural
Gas the Supreme Court rejected the determination of facts dictated to the Court by
Defense Counsel, and there was no Court Hearing in this case pursuant to Rule 52,
FRCivP which allowed the Petitioner to present his case, testify, and question the
named Defendants, and question or depose a rebuttal witness pursuant to US vs.
Grinties. 237 F. 3d 876.
Petitioner raised the issue of the Trial Court’s variance with Rule 52, FRCivP,
and the Celotex and El Paso standards set by the Supreme Court, but the Eighth
Circuit ruled against the Petitioner.
14

E. STATEMENT IN SUPPORT OF QUESTION 5
In the Third and Eleventh Causes of Action of the Petitioner’s Amended
Complaint with the Trial Court, the Respondent alleged with supporting
documentation* that the Local charged dues to the Plaintiff and those he worked
with in excess of those prescribed by the Local’s schedules for dues collection
contained in Appendix B of the Local One, SEIU Constitution and Bylaws and that
these excessive dues were not approved by any election*. Trial Court ruled and the
Eighth Circuit confirmed for Summary Judgment in favor of the DefendantAppellees, on the basis that the Plaintiff failed to exhaust alleged remedies.
Petitioner argues that the ruling of the Eighth Circuit in this case regarding
“exhaustion of remedies” has sanctioned and allowed the trial court to depart far
from the usual and acceptable course of judicial proceedings as to require the
supervision of the Supreme Court pursuant to Supreme Court Rule 10 (a)
regarding the use of the defense of “Exhaustion of Remedies”, and the Petitioner
argues that 29 USC 411(b) applies regarding Article X of the Local One, SEIU
Constitution and Bylaws, which copies 29 USC 481(c) almost word for word:
Section 6. Each eligible candidatefor office shall have a right once within
thirty (30) days prior to any election in which he or she is a candidate to
inspect a list containing the names and last known addresses ofall members
of the Local Union. Such inspection must be made in the presence ofthe
Secretary-Treasurer or Secretary-Treasurer’s designee.

15

“Inspection” does not include being able to make a copy of the list. Also a person
is not allowed to see the list and memorize 50,000 names and addresses within an
hour or two when trying to qualify to be on the ballot, which makes it impossible
for a rank and file member to gather 800 signatures in order to see the list. Article
X of the Local One Constitution and Bylaws states as follows:
No member shall be eligible for nomination as a candidate for election to
any office, including at-large members of the Local Executive Board, unless
such nomination is supported by a petition signed by a minimum of 2% of
the members of the Union in good standingfor all officer positions
(President, Secretary-Treasurer, Vice-presidents, and the Recording
Secretary) and At-Large Executive Board members. Effective September,
2011, for Executive Board members from each specific city, the petition
needs to be supported by 100 signatures ofmembers or 2% of the
membership from that specific city, whichever is more.
Two percent of the Local-wide membership is approximately 800 signatures. The
standard for this case should be Hummel vs. Brennan 469 F. Supp 1180.
Petitioner argues that he and the proposed class and subclass has a claim for
relief similar to that in Hummel and in Albemarle Paper Co. v. Moody, 422 U.S.
405. Petitioner argues that the Eighth Circuit’s ruling is an expansion of the
’’exhaustion of remedies” established case law to include protecting the
Respondents from being held in violation of criminal law, particularly 18 USC
1951(b)(2) and Missouri Statutes 570.030.
Additionally, since Question 1 is a challenge to the Constitutionality of a Federal
Statute, and Respondents acted under the color of the authority of said statute to
16

violate the First Amendment Rights of the Petitioner, which are also described in
29 USC 41 l(a)2, that the Local One Constitution is not a valid legal authority in
keeping with 29 USC 411(b), and therefore the entire concept of “exhaustion of
remedies” is not a valid legal concept whenever a union local constitution is used
to preserve an authoritarian dictatorship, in violation of the spirit of Sadlowski.
Petitioner cited precedents along with testimony and exhibits listing his
numerous attempts to secure nonexistent remedies prior to filing suit with the Trial
Court and raised the issue with the Eighth Circuit to no avail. Precedents included
SIMMONS v. AVISCO, LOCAL 713, TEXTILE WORKERS UNION 350
F.2d 1012 and Amalgamated Clothing Workers of America Rank and File
committee et al., Appellants, v. Amalgamated Clothing Workers of America,
Philadelphia, Jointboard et al, 473 F.2d 1303 These precedents were not referred
to or discussed in the Eighth Circuit’s opinion.
VIII. REASONS FOR GRANTING THE WRIT
QUESTION 1. Union membership as a percentage of the workforce in the United
States has declined from around 30% in 1959 to 10% today, and the percentage of
the private workforce is down to 7%. If the Supreme Court strikes down 29 USC
481(c) as Unconstitutional, and orders the lower courts to require union locals to
provide the contact information of rank and file members to challengers running
for union office so they would have a fair chance to win union elections, in a
17

manner similar to the way public elections in most or all states are run, (See
Missouri Statutes 115.157) (The Local also does not allow absentee ballots in
membership meeting vote elections for people who are working when the meeting
takes place.), the resulting reinstatement of democracy to the union movement will
cause a gradual increase in union membership to such levels as Iceland, where
union membership is approximately 90 per cent of the work force, since dues
would be greatly lowered, and a much higher percentage of dues would go for
benefits, instead of lining the pockets of professional union leaders and their
cronies who can never be removed from office. High salaries and other perks
enjoyed by union leadership are basically cannibalizing the union movement,
including contributing to causing State Legislatures to pass “right to work” laws,
(OLMS LM-2 Reports# are online and can be read by Supreme Court Justices to
confirm how Local One dues are spent.) when modem technology makes it very
possible for people who actually work for a living to run their own unions with the
aid of the internet, assistance from an attorney with expertise in contract law, an
accountant and an IT professional, and devote a much higher percentage of union
dues to pensions, healthcare, and other benefits, while reducing dues to the point
where union membership becomes attractive to the entire workforce. Blocking the
path of this reform is 29 USC 481(c), passed long before the internet was invented.

18

There are ample precedents for striking down Federal Statutes that violate the First
Amendment rights of citizens.
Additionally, since the top 80 richest people in the world own more assets than
the bottom 80% of the people of the world, the stability of democracy in the United
States in the future is dependent on making union membership attractive to those
who work for a living, including insuring that unions are democratic in nature
instead of being autocratic dictatorships who serve the elite power structure, in
keeping with Michel’s Iron Law of Oligarchy, and the Law of Concentration of
Wealth first formulated by Marx.
QUESTION 2. This case gives the Supreme Court the opportunity to address the
inequities of the legal system in a manner similar to Gideon. In this case there are
50,000 workers being exploited financially and are having their First Amendment
rights violated by a few officers and around 200 Local employees who never do
physical work and live in ease and luxury, and yet the Courts will not appoint an
attorney to represent the 50,000 workers who often do work that most people will
not do, and struggle to feed their families under the constant threat of losing their
jobs unless they go along with every dues increase their leaders demand of them.
Additionally, there are 15 million union members nationwide who face an uphill
battle should they choose to run for union office because an archaic
Unconstitutional federal law which contradicts state public election laws gives an
19

enormous advantage to incumbents, and rank and file members of Local One and
15 million union members nationwide need to be represented by an outstanding
attorney who will represent their interests and argue before the Supreme Court.
The Petitioner further argues that in this case the dues payers of Local One are the
sole source of payments for legal fees to defend the named Respondents who direct
the activities of the Local that the Petitioner is complaining about, although the
rank and file membership is completely unaware that their dues are being used in
this manner, and this situation is as unfair as any situation facing the legal
profession today.
QUESTION 3. The Supreme Court has an opportunity in this case to demonstrate
that the enforcement of ethical standards it has in the past mandated of the Eighth
Circuit is more important than the false image that the Legal Profession hopes to
present to the public in this case by making rulings in favor of their fellow legal
profession members so that the case does not attract any publicity.
QUESTION 4. The Supreme Court has an opportunity in this case to demonstrate
that cases will be determined by facts and law, instead of by Defense Counsel
dictating the facts to the Court.
QUESTION 5. The Supreme Court has an opportunity to determine that there
should be reasonable limits to the Defense of “exhaustion of remedies”, and that
the authority of the Local One, SEIU Constitution, which has never been approved
20

by the majority of the membership since its merger with Local 50 of St. Louis in
2004*, does not supersede the authority of the United States Constitution, Federal
and State Statutes, particularly 29 USC 411(b), and relevant precedents.
CONCLUSION
In order to answer the five questions presented to the Court for review, any one of
which is sufficient, Petitioner respectfully requests that this Court issue a writ of
certiorari to review the judgment of the Eighth Circuit Court of Appeals.

'S

Arthur J. CMnens Jr., Pro Se
400 N. 4th Street, #1008
St. Louis, MO 63102
314-262-5438
Lawscan2001 @yahoo.com

21

